HHS/OIG, Audit -"Review of Medicare Payments For Beneficiaries With Institutional Status - Pacificare Of Arizona, Phoenix, Arizona,"(A-05-97-00017)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments For Beneficiaries With Institutional Status - Pacificare Of Arizona, Phoenix, Arizona," (A-05-97-00017)
June 24, 1998
Complete
Text of Report is available in PDF format (182 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if capitation payments to PacifiCare of Arizona (formerly FHP) were appropriate
for beneficiaries reported as institutionalized.  We determined PacifiCare received Medicare overpayments totaling
$8,941 for 13 beneficiaries incorrectly classified as institutionalized.  The 13 beneficiaries were part of a statistical
sample of 100 Medicare beneficiaries reported as institutionalized during the period October 1, 1994 through September
30, 1996.  Based on our sample results, we estimate that PacifiCare received Medicare overpayments of at least $100,173
for beneficiaries incorrectly classified as institutionalized during the audit period.